JUDY RABINOVITZ
SPECIAL COUNSEL
IMMIGRANTS’ RIGHTS PROJECT
T/ 212.549.2618
JRABINOVITZ@ACLU.ORG

January 5, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Wolf v. Innovation Law Lab, No.19-1212

Dear Mr. Harris:
I represent the Respondents in the above-captioned case. We are writing
to request a short extension – two days – for the filing of Respondents’ Brief,
currently due on January 13, 3021. Petitioners have consented to this request
which will not affect the oral argument scheduled for March 1, 2021. The
proposed modified schedule is set forth below:

National Office
125 Broad Street,
18th Floor
New York, NY 10004
Tel: (212) 549-2644
Fax: (212) 549-2644
aclu.org
Susan N. Herman
President
Anthony D. Romero
Executive Director
Richard Zacks
Treasurer

Brief of Respondents: Friday, January 15, 2021 (reflects two-day
extension)
Reply of Petitioners: February 16 (reflects that Feb 14 falls on a
Sunday, and Monday the 15th is Presidents’ Day).
Please let me know if you need any additional information. We
appreciate your time and assistance.
Respectfully,
Judy Rabinovitz
Counsel for Respondents
Cc: Jeffrey B. Wall, Acting Solicitor General, SupremeCtBriefs@usdoj.gov
Denise McNerney, Deputy Clerk, dmcnerney@supremecourt.gov

